No.
IN THE

~upreme QCourt of tbe Wniteb ~tates
LAMONT KORTEZ GAINES,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari
to the Fourth Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
5,240 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Colin Casey Hoga
Wilson-Epes Prin ing Co., Inc.

